OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/HAITI’S P.L.
480 TITLE II PROGRAMS
AUDIT REPORT NO. 1-521-10-002-P
December 9, 2009




SAN SALVADOR, EL SALVADOR
Office of Inspector General


December 9, 2009

MEMORANDUM

TO:              USAID/Haiti Acting Mission Director, Anthony S. Chan

FROM:            Regional Inspector General, Catherine Trujillo /s/

SUBJECT:         Audit of USAID/Haiti’s P.L. 480 Title II Programs (Report No.
                 1-521-10-002-P)

This memorandum transmits our final report on the subject audit. We have carefully
considered your comments on the draft report in finalizing the audit report and have
included your response in appendix II of the report.

The report contains five recommendations intended to improve the effectiveness and
implementation of USAID/Haiti’s P.L. 480 Title II Programs. Management decisions
have been reached on all recommendations. M/CFO/APC will record final action on
these recommendations when planned actions have been completed.

I want to express my appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
Tel (503) 2501-2999 - Fax (503) 2228-5459
www.usaid.gov/oig
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objective .................................................................................................................. 3

Audit Findings ................................................................................................................. 4

Are P.L. 480 Title II commodities adequately protected against loss and diversion? ....... 4

     USAID/Haiti Should Examine Food Availability........................................................... 4

     USAID/Haiti Should Strengthen Some Commodity Controls ..................................... 6

Evaluation of Management Comments ......................................................................... 8

Appendix I – Scope and Methodology .......................................................................... 9

Appendix II – Management Comments ....................................................................... 10
SUMMARY OF RESULTS
USAID engages the food security issue in Haiti through multiyear Public Law (P.L.) 480
Title II food security programs, stabilization programs that generate much-needed
disposable income, watershed restoration programs with direct technical assistance for
improved agricultural production, financing programs that target rural farmers and
cooperatives, health programs, and disaster mitigation programs. USAID/Haiti began a
new multiyear P.L. 480 Title II development food aid program in 2008. This 5-year
program runs from 2008 to 2012 and totals $191 million over the life of the program.
The program is implemented by three cooperating sponsors: Catholic Relief Services,
$61.7 million; World Vision, $91 million; and, ACDI/VOCA , $37.4 million (see page 3).

The audit objective was to determine whether P.L. 480 Title II commodities were
adequately protected against loss and diversion. During an inspection of six commodity
warehouses and 14 distribution sites, the audit confirmed that commodities were in most
cases properly stored and that cooperating sponsors maintained accurate inventory
records (see page 4).

However, the audit team did note some areas where program improvements should be
made. Specifically, the audit determined that some distribution centers had periodic
shortages of commodities and provided reduced rations to beneficiaries (see page 5).
Furthermore, a cooperating sponsor had not provided sufficient training to warehouse
staff, had not aggressively pursued action against an employee who had stolen
commodities, and did not have written policies and procedures for food distribution
practices (see page 6). To correct these problems, this report recommends that
USAID/Haiti:

•   obtain quarterly reports on the percentage of distribution sites that have run out of
    food during the previous quarter and document agreement on actions to address
    these shortages (see page 5);

•   obtain quarterly reports on the percentage of distribution sites that were not in
    compliance with approved ration sizes during the previous quarter and document
    agreement on actions to address these cases (see page 5);

•   obtain written evidence that its cooperating sponsor has provided training to the staff
    at Pwoje Espwa distribution center regarding inventory controls and program policies
    and procedures (see page 6);

•   obtain written evidence that its cooperating sponsor has obtained restitution and
    taken mission-approved legal action in response to the theft of food from Pwoje
    Espwa (see page 7); and

•   document and verify that its cooperating sponsors (1) have developed a complete
    beneficiary database and are using it to print lists of eligible beneficiaries prior to
    each distribution, and (2) have developed and implemented written procedures for
    food distribution (see page 7).




                                                                                         1
In written comments, USAID/Haiti concurred with the five recommendations and
provided information regarding planned corrective actions. Specifically, the mission
agreed to (1) put in place a tracking system to monitor food shortages in distribution
centers, identify their causes, and address them properly in a timely manner; (2) collect
quarterly data on centers not in compliance with approved ration sizes and actions taken
to address these cases; (3) provide training for better inventory control and compliance
with program policies and procedures at Pwoje Espwa distribution center; (4) seek
judicial action and reimbursement in response to the theft of food from Pwoje Espwa
distribution center; and (5) review the existing monitoring procedures with the partners to
closely monitor their implementation of a database where full name, starting date, and
exit date are registered for each beneficiary category (see page 10).

Based on the mission’s response, the audit team believes that a management decision
has been reached on all recommendations.




                                                                                         2
BACKGROUND
USAID administers Title II of the Food for Peace Program, 1 which authorizes direct
donations of U.S. agricultural commodities for emergency relief and development.
USAID administers both emergency and nonemergency food aid activities under the
Food for Peace program. Haiti’s food access problems are the result of weak economic
growth, widespread lack of job opportunities, credit constraints, and citizens’ weak
purchasing power. USAID’s current strategy for Haiti states that lack of food availability,
lack of access to food because of low incomes, and suboptimal use of available food
have become chronic structural problems in Haiti. Poverty is extremely widespread, with
an estimated 75 percent of the population living on less than $2 a day.

These problems were exacerbated by four tropical storms in August and September
2008, which caused major flooding and directly affected 800,000 people out of a
population of 9 million, mainly through damage to crops, homes, and roads. Because of
these serious problems, USAID’s Office of Food for Peace has made Haiti a priority
country eligible for new multiyear programming, 1 of only 19 countries worldwide to be
so designated.

USAID agreed to donate agricultural commodities and to pay related support and
programmatic costs to three cooperating sponsors under transfer authorization awards:

    •   Catholic Relief Services – award from February 2008 to September 2012 for total
        estimated program costs of $61.7 million. As of March 2009, Catholic Relief
        Services had distributed 5,654 metric tons of commodities.

    •   World Vision – award from February 2008 to September 2013 for total estimated
        program costs of $91 million. As of March 2009, World Vision had distributed
        5,256 metric tons of commodities.

    •   ACDI/VOCA – award from February 2008 to February 2013 for total estimated
        program costs of $37.4 million. As of March 2009, ACDI/VOCA had distributed
        64 metric tons of commodities. It continues to set up operations and enlist
        eligible beneficiaries into its program.

AUDIT OBJECTIVE
As part of its fiscal year 2009 annual audit plan, the Regional Inspector General office in
San Salvador, El Salvador, audited USAID/Haiti’s P.L. 480 Title II Program to answer the
following question:

•   Are P.L. 480 Title II commodities adequately protected against loss and diversion?

Appendix I contains a discussion of the audit’s scope and methodology.



1
  The Agricultural Trade Development and Assistance Act of 1954, Public Law 83-480, later
renamed the Food for Peace Program.


                                                                                         3
AUDIT FINDINGS
Are P.L. 480 commodities adequately protected from loss and
diversion?
During an inspection of six commodity warehouses and 14 distribution sites, the audit
team confirmed that commodities at these locations were in most cases properly stored
and that cooperating sponsors maintained accurate inventory records.

USAID/Haiti staff members collect data on commodity shipments and deliveries through
status reports submitted regularly by the coordinating sponsor, and review progress
reports regarding program activities and performance. Mission staff review and approve
all commodity call forwards, conduct semiweekly meetings with the coordinating
sponsors, and have frequent phone and e-mail communications with the implementing
partners. The main control over the program is the staff members whose duties include
acting as food monitors/inspectors. These monitors randomly inspect food distribution
centers and collect information on the handling, storage, inventory, and distribution of
the commodities, as well as data on the specific activity the food aid is supporting. Each
monitor has an area of expertise and also checks the accomplishment of program
objectives in such areas as health, agriculture, social assistance, and education.

The audit inspected five regional commodity warehouses and the program’s central
commodity warehouse in Port-au-Prince, currently being utilized by all three coordinating
sponsors, and found them generally to be organized, clean, and well protected, and to
have accurate recordkeeping. The audit also visited 14 distribution sites, including
maternal and child health and nutrition sites, school feeding centers, general relief
distribution sites, and orphan and HIV patient feeding sites, and identified no major
deficiencies.

While commodities were adequately protected from loss or diversion, there are
opportunities to improve program operations. Some distribution sites have experienced
food shortages and are issuing food rations to beneficiaries that are smaller than the
authorized ration sizes. Also, at some distribution sites, controls should be improved.
These issues are discussed in the following sections.

USAID/Haiti Should Examine Food Availability
 Summary: The P.L. 480 program goals are to combat hunger, malnutrition, and their
 causes. USAID/Haiti’s P.L. 480 program did not always meet important program
 requirements because its food distribution points did not always have access to
 sufficient supplies for the population to be served. Furthermore, in several instances
 reduced rations were provided to the program’s beneficiaries. Hurricanes and tropical
 storms caused significant damage to Haiti’s roads and bridges in late 2008, reducing
 the program’s ability to transport commodities in a timely manner. However, better
 information and planning for contingencies should help maintain the availability of
 commodities.




                                                                                        4
The P.L. 480 program goals are to combat hunger, malnutrition, and their causes.
USAID/Haiti’s P.L. 480 program did not always meet important program requirements
because its food distribution points did not always have access to sufficient supplies for
the population to be served. Better data regarding supplies should reduce the risk of
reduced food availability.

Examples where feeding centers ran out of food or reduced rations include the following:

   •   A school with 420 enrolled beneficiaries had no lentils or peas from April 2, 2007,
       to April 14, 2009. The feeding program was suspended during February, March,
       and early April 2009 because of limited supplies.

   •   A child feeding center with 30 enrolled beneficiaries was out of vegetable oil,
       peas/lentils, and other foods during August 2008. Feeding continued with the
       limited supplies available, but the ration sizes were not adjusted to compensate
       for the missing foods. From September 1 to October 24, 2008, the center did not
       provide any feeding services because of a complete lack of commodities.

   •   A hospital with 50 enrolled beneficiaries was out of some food components for
       numerous periods from October 2008 to May 2009.

   •   A clinic with 500 enrolled beneficiaries (pregnant woman) reduced the ration for
       peas from 2.78 kilograms per month to 1 kilogram per month because of
       shortages.

According to USAID/Haiti officials, these deficiencies were caused by poor road
conditions in the aftermath of the tropical storms in the fall of 2008. In addition, high
demand sometimes led centers to distribute commodities to beneficiaries who were not
enrolled in the program, causing shortages for enrolled beneficiaries. According to
USAID/Haiti officials, problems with food shortages and reduced ration sizes had been
discussed within the mission, but officials have not been able to find a solution to the
problem other than requesting significant additional food resources for the program over
and above the limits of existing agreements.

Episodes of food insecurity reduced the program’s effectiveness in improving the health
and nutritional status of the target populations. Short rations reduce the program’s
effectiveness in improving the health and nutritional status of beneficiaries and do not
fully contribute to reducing food insecurity in Haiti. To correct this situation, this audit
makes the following recommendations:

   Recommendation No. 1: We recommend that USAID/Haiti obtain quarterly
   reports on the percentage of distribution sites that have run out of food during the
   previous quarter and document agreement on actions to address these
   shortages.

   Recommendation No. 2: We recommend that USAID/Haiti obtain quarterly
   reports on the percentage of distribution sites that were not in compliance with
   approved ration sizes during the previous quarter and document agreement on
   actions to address these cases.




                                                                                          5
USAID/Haiti Should Strengthen
Some Commodity Controls
 Summary: According to the P.L. 480 Handbook, protection of commodities is
 necessary to ensure that beneficiaries receive planned assistance. However, at one
 distribution center, a locally hired commodity warehouse worker was fired for stealing
 food-for-work commodities, and the new warehouse worker has not been trained in
 commodity warehouse management. At another distribution center, staff did not have
 written policies and procedures in place to ensure that eligible beneficiaries received
 food rations. Weak controls and procedures increase the risk of loss and diversion of
 P.L. 480 commodities.

According to the P.L. 480 Handbook, it is essential for the USAID mission to establish
oversight and monitoring procedures for good food aid management, and to establish an
atmosphere of day-to-day consultation and collaboration with cooperating sponsors and
other food donors. While cooperating sponsors have primary responsibility for
implementing, monitoring, reporting on, and auditing their Title II program activities,
commodities, and funds, USAID missions are expected to monitor cooperating sponsor's
management of the commodities and use of sales proceeds and grant funds.

At one center (Pwoje Espwa), the previous commodity warehouseman was fired for
stealing P.L. 480 food provided under the food-for-work program. While the amounts
involved were modest, there was no evidence that the cooperating sponsor was notified
of the theft, restitution made, or legal action initiated against the warehouseman. In
addition, the current warehouseman has not been trained, and several deficiencies were
observed. For example, stock on hand exceeded amounts in the records, the ending
balances on the March daily record did not match the opening balances on the April
daily record, and no physical inventory was conducted at the end of April.

At another center, an implementing partner in charge of food distribution did not have
written procedures for food distributions.      Furthermore, the handwritten lists of
beneficiaries were not signed, reviewed, or otherwise formally approved by someone
other than the person who prepares the list. This makes it difficult to ensure that only
selected beneficiaries who have met the requirements and have been inducted into the
program receive the nutritional and health support provided by the program.

These weaknesses occurred because USAID and its cooperating sponsors did not fully
implement appropriate controls in accordance with the P.L. 480 Handbook. Weak
procedures and inaccurate inventory controls over valuable P.L. 480 commodities create
a greater risk of losses to spoilage, damage, and theft. To correct this situation, this
audit makes the following recommendations.

   Recommendation No. 3: We recommend that USAID/Haiti obtain written
   evidence that its cooperating sponsor has provided training to the staff at Pwoje
   Espwa distribution center regarding inventory controls and program policies and
   procedures.




                                                                                       6
Recommendation No. 4: We recommend that USAID/Haiti obtain written
evidence that its cooperating sponsor has obtained restitution and taken mission-
approved legal action in response to the theft of food from Pwoje Espwa.

Recommendation No. 5: We recommend that USAID/Haiti document and verify
that its cooperating sponsors (a) have developed a complete beneficiary
database and are using it to print lists of eligible beneficiaries prior to each
distribution, and (b) have developed and implemented written procedures for
food distribution.




                                                                                    7
EVALUATION OF
MANAGEMENT COMMENTS
In written comments, USAID/Haiti concurred with the five recommendations and
provided information regarding planned corrective actions. Specifically, the mission
agreed to:

   •   put in place a tracking system to monitor food shortages in distribution centers,
       identify their causes, and address them properly in a timely manner;

   •   collect quarterly data on centers not in compliance with approved ration sizes
       and actions taken to address these cases;

   •   provided training for better inventory control and compliance with program
       policies and procedures at Pwoje Espwa distribution center;

   •   seek judicial action and reimbursement in response to the theft of food from
       Pwoje Espwa distribution center; and

   •   review the existing monitoring procedures with the partners to closely monitor
       their implementation of a database where full name, starting date, and exit date
       are registered for each beneficiary category.

Based on the mission’s response, the Regional Inspector General/San Salvador
believes that a management decision has been reached on all five recommendations.




                                                                                      8
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this performance audit in
accordance with generally accepted Government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. The purpose of the audit was to
determine if the Public Law (P.L.) 480 Title II commodities are adequately protected
against loss and diversion.

In planning and performing this audit, we assessed the mission’s controls related to its
food aid assistance activities. The management controls identified included the mission
performance management plan, program progress reports, USAID/Haiti strategy
documents, and the mission’s fiscal year 2009 self-assessment of management controls
as required by the Federal Managers’ Financial Integrity Act of 1982.

The audit was conducted in mission and Cooperating Sponsors’ offices in various regions
of Haiti, from May 5 to May 20, 2009. Our audit primarily focused on achievement of main
goals under the Development Assistance Program ending in early 2008 and the follow-on
Multi Year Assistance Program from that point through March 2009. Our audit of the
protection of commodities generally focused on commodities received to date at the
program’s central commodity warehouse in Port-au-Prince, as well as at 19 of the
program’s 496 regional warehouses and distribution sites. Our analysis and conclusions
are restricted to the controls in place at those locations visited during the audit.

Methodology
To determine whether the P.L. 480 Title II commodities were adequately protected against
loss and diversion, we interviewed responsible mission and cooperating sponsor personnel
and reviewed documentation supporting commodity shipments and distributions. We
judgmentally selected a sample of warehouses and distribution sites to include in our audit
and validated commodity amounts by conducting inventories at various warehouse
locations and comparing our actual inventory counts to records maintained in the
warehouse offices records. We inspected the warehouses to determine if commodities
were properly stored and protected and observed commodity distributions to beneficiaries
during site visits.




                                                                                         9
                                                                             APPENDIX II



MANAGEMENT COMMENTS
TO:            Catherine Trujillo, RIG/San Salvador

FROM:          Anthony S. Chan, Acting Mission Director /s/

DATE:          November 20, 2009

SUBJECT:       Mission Response to the Draft RIG Audit Report of USAID/Haiti’s P.L.
               480 Title II Programs (Report No. 1-521-10-00X-P)

This memorandum represents USAID/Haiti’s formal response to the draft RIG audit
report of USAID/Haiti P.L. 480 Title II Programs (Report No. 1-521-10-00X-P) to
determine if commodities were adequately protected against loss and diversion.
USAID/Haiti appreciates the time and effort of the RIG staff in carrying-out this audit and
for the professional and cooperative manner in which the audit was conducted.

General Comment:

We agree with all five (5) recommendations provided in the audit report and believe they
will enable us to improve the overall management of the P.L. 480 Title II commodities for
a greater impact on the vulnerable populations in Haiti.

The auditors identified specific opportunities for USAID/Haiti to strengthen the
management of P.L. 480 Title II commodities through the three (3) Cooperating
Sponsors activities. All recommended actions are issues that were identified by the
Cooperating Sponsors, and resolution is well underway. As requested, action plans and
timeframes are developed below in order to implement all the recommendations noted in
the report in a timely manner.

Recommendation No. 1:

We recommend that USAID/Haiti obtain quarterly reports on the percentage of
distribution sites that have run out of food during the previous quarter and document
agreement on actions to address these shortages.

Planned Action:

All three MYAP partners will put in place a tracking system to monitor food shortages in
distribution centers, identify their causes, and address them properly in a timely manner.
In September 2009, CRS Commodity Management staff was trained to ensure a better
management of the pipeline at the distribution center level in order to prevent shortages.
Consequently, information related to these shortages will be reflected in the MYAP
quarterly reports. The first quarterly report will be received in January 2010.


Recommendation No. 2:




                                                                                        10
                                                                           APPENDIX IV


We recommend that USAID/Haiti obtain quarterly reports on the percentage of
distribution sites that were not in compliance with approved ration sizes during the
previous quarter and document agreement on actions to address these cases.

Planned Action:

The MYAP partners, particularly their commodity management units, will make sure that
approved ration sizes are well applied. The Partners’ monitoring staff as well as the
USAID Field Monitors will ensure that all centers are in compliance with approved ration
size. Data on centers not in compliance and actions taken to address these cases will
be consolidated and submitted by MYAP partners to USAID/Haiti at the same time with
the quarterly report.

The Mission has asked the Cooperating Sponsors to update regularly the beneficiary
lists. Since August 2009, CRS has made provision in its Pipeline and Resource
Estimate Proposal (PREP) to increase the number of beneficiaries by 1,000 in the
education program. The number of centers will not increase in order to ensure that the
total number of students enrolled in the schools is served.


Recommendation No. 3:

We recommend that USAID/Haiti obtain written evidence that its cooperating sponsor
has provided training to the staff at Pwoje Espwa distribution center regarding inventory
controls and program policies and procedures.

Planned Action:

Training has been provided to the previous management committee at the center level.
The management committee has just been partially reelected. Refresher training is
scheduled for the end of November 2009 for better inventory control and compliance
with program policies and procedures.


Recommendation No. 4:

We recommend that USAID/Haiti obtain written evidence that its cooperating sponsor
has obtained restitution and taken Mission approved legal action in response to the theft
of food from Pwoje Espwa.

Planned Action:

The Warehouse Manager has been fired and the case turned to the judiciary system.
CRS sent a reimbursement letter requesting payment to the center on November 20,
2009.


Recommendation No. 5:

We recommend that USAID/Haiti document and verify that its cooperating sponsors (1)
have developed a complete beneficiary database and are using it to print lists of eligible


                                                                                       11
                                                                         APPENDIX IV


beneficiaries prior to each distribution, and (2) have developed and implemented written
procedures for food distribution.

Planned Action:

The MYAP partners have in place a database where full name, starting date and exit
date are registered for each beneficiary category. This system is the basis for the
allocation of the food to the centers and the beneficiaries. It is updated on a monthly
basis.

USAID/Haiti will review the existing monitoring procedures with the MYAP partners and
will closely monitor their implementation.

In closing, we would like again to express our appreciation for the professional manner
in which the audit was conducted. The initiative of listing in advance the documentation
needed and the sites that would be visited during the exercise contributed to a smoother
implementation of the agenda. Since logistics and security requirements were addressed
in advance, the auditors and the USAID/Haiti Team could better focus on discussions,
interviews, and sites visits.

Furthermore, the RIG Audit has been a good opportunity for the USAID/Haiti Team and
The MYAP partners to receive useful recommendations that will help us improve our
services and contribute even more to a good implementation of the P.L. 480 Title II
activities and its benefits on the vulnerable populations.




                                                                                     12
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
